Audit of USAID/Uganda’s Financial Operations
and Controls for Fiscal Year 2002
Audit Report No. 4-617-03-002-F
March 17, 2003




            PRETORIA, SOUTH AFRICA
March 17, 2003

MEMORANDUM
FOR:           Mission Director, USAID/Uganda, Vicki L. Moore

FROM:          Regional Inspector General/Pretoria, Jay Rollins /s/

SUBJECT:       Audit of USAID/Uganda’s Financial Operations and Controls
               for Fiscal Year 2002 (Report No. 4-617-03-002-F)

This memorandum is our report on the subject audit.

USAID/Uganda’s management comments on the draft report were considered
and included as Appendix II. This report contains no recommendations for your
action.

I appreciate the cooperation and courtesy extended to my staff during the audit.
[This page intentionally left blank]




                                       2
             The audit of USAID/Uganda’s financial operations and controls for fiscal year
Summary of   2002 focused on determining whether financial data were free from material
Results      misstatements. (See page 4.)

             The audit showed that USAID/Uganda’s fiscal year 2002 financial data were
             free from material misstatements. Substantive testing did not identify any
             discrepancies in the Mission’s financial data reported for fiscal year 2002 that
             would materially impact the Mission’s account balances. (See page 4.)

             USAID/Uganda was pleased to note that the audit report had no audit
             recommendations. Regarding the management letter, the Mission took note
             and corrected the immaterial findings detailed in the letter. (See Appendix II.)



Background   The Government Management Reform Act of 1994 requires agencies to
             complete audited financial statements each year covering all accounts and
             associated activities of the agencies. These financial statements are required
             to not only report the financial position and results of operations of the
             agency, but also to provide further information allowing Congress and the
             public to assess management’s performance and stewardship of agency
             resources. As a result of this legislation, USAID management is required to
             compile USAID-wide financial statements and supplemental information. For
             fiscal year 2002, these financial statements are to be audited and submitted to
             the Office of Management and Budget (OMB) no later than February 1,
             2003.1

             This review is part of a USAID-wide effort, led by the Office of Inspector
             General’s Financial Audits Division in Washington, D.C., to audit USAID’s
             fiscal year 2002 financial statements prior to their submission to OMB.
             USAID/Uganda uses the Mission Accounting and Control System (MACS)
             for accounting and controlling budget transactions. During fiscal year 2002,
             MACS data was consolidated into USAID/Washington’s system using the
             MACS Auxiliary Ledger. This ledger is a detailed transaction-level database
             maintained and used by USAID/Washington, Office of Management,
             Financial Management Division to journalize and post mission transaction
             balances to the USAID general ledger and then to the financial statements.




             1
                 OMB Bulletin No. 01-09, September 25, 2001




                                                                                           3
Audit Objective
                   As part of a USAID-wide audit, RIG/Pretoria performed this audit to answer
                  the following question:

                          Are USAID/Uganda’s fiscal year 2002 financial data free from
                          material misstatements?

                  Appendix I provides a complete discussion of the scope and methodology for
                  this audit.



Audit Findings    Are USAID/Uganda’s fiscal year 2002 financial data free from material
                  misstatements?

                  USAID/Uganda’s fiscal year 2002 financial data were free from material
                  misstatements. The substantive testing phase of our audit did not identify any
                  discrepancies in the Mission’s financial data reported for fiscal year 2002 that
                  would materially impact the Mission’s account balances. Overall, the Mission’s
                  fiscal year 2002 financial data met the five financial statement assertions, as
                  referred to in Office of Management and Budget Bulletin No. 01-02 and related
                  General Accounting Office guidance:

                  •   All assets and liabilities actually exist and expense transactions actually
                      occurred (Existence and Occurrence).
                  •   All transactions and accounts are presented in the financial statements
                      (Completeness).
                  •   Amounts recorded as assets represent property rights and the amounts
                      recorded as liabilities represent obligations (Rights and Obligations).
                  •   Assets, liabilities, revenue and expenses are assigned proper values
                      (Valuation and Allocation).
                  •   Accounting principles are properly applied and disclosures are adequate
                      (Presentation and Disclosure).

                  Other items, which we deemed immaterial, came to our attention that we reported
                  in a separate management letter to the Mission.




                                                                                                4
Management       USAID/Uganda was pleased to note that the audit report had no audit
Comments and     recommendations. Regarding the management letter, the Mission took
                 note and corrected the immaterial findings detailed in the letter.
Our Evaluation
                 The Mission was very grateful for the Regional Inspector General
                 auditors’ contribution to strengthening the Mission’s financial operations
                 and controls.




                                                                                              5
[This page intentionally left blank.]




                                        6
                                                                                         Appendix I


Scope and         Scope
Methodology
                  RIG/Pretoria conducted this audit in accordance with generally accepted
                  government auditing standards. The audit is part of a USAID-wide audit led by
                  the Office of Inspector General’s Financial Audits Division (IG/A/FA) in
                  Washington, D.C. In auditing the financial data, IG/A/FA performed an earlier
                  internal control review at the Mission. RIG/Pretoria considered the audit
                  findings from the aforementioned internal control review in conducting the
                  substantive tests of details of the Mission’s financial data. Fieldwork was
                  conducted at USAID/Uganda in Kampala, Uganda from October 22 to
                  November 8, 2002.

                  The audit was conduct to determine if USAID/Uganda’s fiscal year 2002
                  financial data were free from material misstatements. The audit focused on
                  reviewing and testing management controls over the financial data generated
                  under the following accounting processes: advances, accruals, data calls,
                  disbursements, SF-1221 Treasury Fund Balance reconciliation, budgetary
                  balances, Foreign Currency Trust Fund activity, closing procedures, and
                  exception reporting. To audit the aforementioned accounting processes,
                  sample items were either judgmentally or statistically selected for testing, as
                  identified below:

                  Advances – the Office of Inspector General (OIG) statistician statistically
                  selected a sample of 67 transaction items from a total universe of 313
                  transaction items. The net value of the sample items was $1.2 million of a
                  total $1.6 million. The absolute value of the sample items was $3.9 million of
                  a total $4.7 million. We determined the amount of outstanding advances over
                  120 days.

                  Accruals – the OIG statistician statistically selected a sample of 55
                  transaction items from a total universe of 132 transactions. The absolute
                  value of the sample items was $14.4 million of a total of $15 million.

                  Data Calls – RIG/Pretoria auditors judgmentally selected several sample
                  items from the Mission’s data calls for the following costs:

              •   Non-expended/Expendable Property – the auditors physically verified the
                  existence of five of the eight capitalized items.
              •   Schedule 9 Account Receivables – the auditors selected three fund cites
                  (72X1000, 72X1014, and 72X1021) to test for accuracy. Within the fund
                  cites, the auditors judgmentally selected nine account receivables to check the
                  amount issued and collected.




                                                                                               7
• Unfunded Accrued Annual Leave for Foreign Service Nationals and Personal
  Service Contractors – the auditors judgmentally selected 15 sample items to
  verify the total amount of unfunded leave.
• Operating Leases – the auditors judgmentally selected five out of a total of 17
  leases for testing. The auditors reconciled the sample items’ data reported on
  the data calls to the actual lease documents.

    Disbursements – the OIG statistician statistically selected a sample of 80
    transaction items from a universe of 3,252 transactions. The absolute value of
    the sample items was $25.9 million of a total of $44.7 million. The tests
    covered project and operating disbursements. Due to time constraints, the test
    of verifying if the sample disbursements were posted into the Electronic
    Certification System was performed on a limited number of samples.

    SF-1221 Treasury Fund Balance Reconciliation – the tests covered the July
    and August 2002 reconciliation process for appropriations 72X1021,
    72X1095, and 72X1037.

    Budgetary Balances – the auditors determined that the obligations were valid
    and that the Mission performed the 1311 reviews. The test of the Working
    Capital Fund was not applicable because the Mission does not have a Working
    Capital Fund.

    Foreign Currency Trust Fund Activity – the auditors verified the accuracy
    of the fund’s balance to the accounting records and bank statements.

    Closing Procedures – the review covered interviewing the Chief Accountant
    and verifying supporting documentation to determine if the Mission
    implemented the required closing procedures.

    Exception Reporting – the review covered verifying the resolution of any
    exceptions reported in the Mission Accounting and Control System (MACS)
    Auxiliary Ledger Validation Report.

    Methodology

    To accomplish the audit objective, the auditors conducted interviews with
    officials and staff at USAID/Uganda in order to gain an understanding of the
    Mission’s existing procedures and controls covering the processes tested.




                                                                                8
The OIG statistician statistically selected sample transaction items from the
MACS Auxiliary Ledger for testing. The sample size was derived with the
assumption of less than five percent error rate, four percent precision and 90
percent confidence level for each population. The sampling plan was based on
prior history, knowledge of the operation, risks, and the costs involved. In
assessing accuracy, we used a materiality threshold of plus or minus five percent
relative to the population being audited.

The tests of details included verifying the accuracy of the data with source
documentation and detailed accounting records maintained by the Mission. In
addition, we determined whether the data met the five financial statement
assertions: (1) existence and occurrence; (2) completeness; (3) rights and
obligations; (4) valuation and allocation; and (5) presentation and disclosure.
To gather audit evidence, the audit procedures involved recalculation, physical
observation, confirmation, interviews, examination of documents, vouching,
tracing, and sampling. The audit also included a review of the procedures and
controls in place at the time of our fieldwork.

For criteria, the auditors used financial management-related chapters from the
Automated Directives System, Office of Management and Budget Circulars and
Bulletins, Treasury Circular 930, the Government Management Reform Act of
1994, and related General Accounting Office guidance.




                                                                               9
[This page intentionally left blank]




                                       10
                                                                                Appendix II



Management
Comments                                      memorandum
             United States
             Agency for
             International
             Development




             DATE:           March 10, 2003

             TO:             Jay Rollins
                             Regional Inspector General
                             Pretoria/South Africa

             FROM:           Vicki L. Moore, /s/
                             USAID/Uganda Mission Director

             SUBJECT: Audit of USAID/Uganda’s Financial Operations and Controls
             for Fiscal year 2002 – Report No. 4-617-03-00X-F


             Mission is in receipt of subject draft audit report attached to
             your memorandum dated February 7, 2003. We are pleased to note
             that the audit report has no audit recommendations. Also, please
             be advised that Mission has taken note and corrected the
             immaterial findings detailed in your management memo dated
             February 7, 2003.

             Mission highly values the work of the Regional Inspector General
             auditors and is grateful for their contribution to strengthening
             the Mission’s financial operations and controls.




                                                                                       11
